IN THE SUPREME COURT OF THE UNITED STATES

STAFNE, SCOTT ERIK
Petitioner
vs.

No:

20-1085

THOMAS S. ZILLY, JUDGE, UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT OF
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
March 09, 2021
cc:
SCOTT ERIK STAFNE
STAFNE LAW ADVOCACY &
CONSULTING
239 N. OLYMPIC AVE.
ARLINGTON, WA 98223

